 DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


  Evaluation of DHS’ Security Program and Practices For
                 Its Intelligence Systems


               Unclassified Summary




          Office of Information Technology



OIG-06-13                            December 2005
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                               Office of Inspector General
      Evaluation of DHS’ Security Program and Practices For Its Intelligence Systems
                                        OIG-06-13
_________________________________________________________________________________

We conducted an evaluation of DHS’ information assurance posture, including its policies and
procedures, for the intelligence systems under the department’s purview. We performed our work
from May through September 2005, at both the program and organizational component levels. Our
evaluation focused on DHS’ compliance with the Federal Information Security Management Act of
2002 for its intelligence systems in operation as of May 1, 2005, and containing Top Secret/Sensitive
Compartmented Information (TS/SCI).

The overall objective of our evaluation was to identify whether DHS’ information security program
and practices for its intelligence systems are adequate and effective in protecting TS/SCI information
from unauthorized access, use, disclosure, disruption, modification, or destruction. Our assessment
included five intelligence community-wide weakness areas that were previously identified by the
Intelligence Community Chief Information Officer (IC CIO), and three additional areas that the IC
CIO asked Offices of Inspector General to assess as part of their Fiscal Year 2005 review. As part of
our evaluation, we also determined whether system security controls were adequate and effective for
a sample of eight intelligence systems based upon the requirements in Director of Central
Intelligence Directive 6/3, Protecting Sensitive Compartmented Information Within Information
Systems. Additionally, we conducted system security vulnerability assessments for a subset of six of
the eight intelligence systems included in our review. Furthermore, we evaluated DHS’ Plan of
Action and Milestones (POA&M) process for its intelligence systems and followed up on previous
recommendations discussed with DHS.

We recommended that DHS establish a single, comprehensive, and inclusive information security
program for its intelligence systems in order to: (1) address the issues identified; (2) provide
adequate security for the information and information systems that support intelligence operations
and assets; and (3) ensure the confidentiality, integrity, and availability of vital intelligence
information. Both DHS’ Office of Security and Assistant Secretary for Information Analysis
concurred with our recommendation and have begun taking actions to address the issues identified.
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
